No. 19-339
IN THE

Supreme Court of tfje Untteb States;
EUGENE SONNIER, II,
Petitioner,
v.
CATHOLIC FOUNDATION OF THE DIOCESE OF
LAYFETTE, ETAL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the Petition for Rehearing contains
1,299 words, excluding the parts of the petition
that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on December 13, 2019

G. KARL BEKNAR:

